No. _______
IN THE
SUPREME COURT OF THE UNITED STATES
KELVIN BAEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, by and through undersigned counsel, asks leave to file a
Petition for a Writ of Certiorari without payment of costs and to proceed in forma
pauperis pursuant to Rule 39 of the Supreme Court Rules. Counsel was appointed
in the lower court pursuant to 18 U.S.C. ยง 3006A.
This 10th day of May, 2021.
Respectfully submitted,
s/ Rabea Jamal Zayed
Rabea Jamal Zayed
Counsel of Record
Dorsey & Whitney LLP
50 South Sixth Street, Suite 1500
Minneapolis, MN 55402-1498
Telephone: (612) 340-2600
zayed.rj@dorsey.com
Counsel for Petitioner
Kelvin Baez

4813-7530-5961\

